No.

IN THE
SUPREME COURT OF THE UNITED STATES

FITA SPANN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

LAINE CARDARLLA
Federal Public Defender
Western District of Missouri

DAVID R. MERCER, #36572
First Assistant Federal Public Defender
901 St. Louis Street, Suite 801
Springfield, Missouri 65806
Attorney for Petitioner
Fita Spann

No.

IN THE
SUPREME COURT OF THE UNITED STATES

FITA SPANN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

COMES NOW Petitioner, Fita Spann, by his attorney, David R. Mercer, First
Assistant Federal Public Defender, Western District of Missouri, and moves this
Court, pursuant to 28 U.S.C. §1915, 18 U.S.C.§ 3006A(d)(7) and Sup. Ct. R. 39.1
and .2, for leave to file a petition for writ of certiorari to the United States Court of
Appeals for the Eighth Circuit without prepayment of docket or other fees, and to
proceed In Forma Pauperis. The petition accompanies this motion.
Mr. Spann was committed to the custody of the Attorney General pursuant to
18 U.S.C. § 4246(d), on June 6, 2001. Thereafter, on March 17, 2015, the United

States District Court for the Western District of Missouri granted Mr. Spann a
conditional release, via 18 U.S.C. § 4246(e). On April 22, 2019, the Government
sought to revoke this term of conditional release, via 18 U.S.C. § 4246(f). In
connection with these revocation proceedings, the United States Magistrate David
Rush appointed the Federal Public Defenders Office to represent Mr. Spann pursuant
to the Criminal Justice Act on May 15, 2019. Specifically, this order of appointment
in the District Court found that "the defendant is financially unable to obtain counsel
and defendant not having waived counsel."
On December 4, 2019, the Eighth Circuit Court of Appeals ordered "that the
Federal Public Defender for the W estem District of Missouri is hereby appointed to
continue to represent the above named appellant in all matters pertaining to this
action before this Court." The Eighth Circuit docket sheet (see Appendix B) notes
that Mr. Spann is proceeding informa pauperis.
Because both the United States District Court for the Western District of
Missouri and the United States Court of Appeals for the Eighth Circuit permitted
Mr. Spann to proceed In Forma Pauperis and appointed counsel for him, no affidavit
in support of this Motion to Proceed In Forma Pauperis in this Court is required. 18
U.S.C. § 3006A(d)(7) and Sup. Ct. R. 39.1.

Respectfully submitted,
LAINE C. CARDARELLA
Federal Public Defender
Western District of Missouri

DAVID R. MERCER, #36572
First Assistant Federal Public Defender
901 St. Louis Street, Suite 801
Springfield, Missouri 65806
Attorney for Petitioner
Fita Spann

